V

APPENDIX A

J

Appendix A

v

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 & Dearborn Street
Chicago, Illinois 60604

Office of the Cleric
Phone: (312) 435-5850
www.ca7.uscourts.gov

FINAL JUDGMENT
March 5,2020
Before:

DIANE S. SYKES, Circuit Judge
DAVID F. HAMILTON, Circuit Judge
MICHAEL Y. SCUDDER, Circuit Judge

MIKHAIL TSUKERMAN,
Plaintiff - Appellant
No. 19-3075

v.
WESTERN COMMUNITY UNIT SCHOOL DISTRICT NO. 12,
Defendant - Appellee

District Court No: 3:16-cv-03214-SEM-TSH
Central District of Illinois
DistrictJudgeSueErMyerscough---- ---- —
The judgment of the District Court is AFFIRMED, with costs, in accordance with the decision
of this court entered on this date.
form name: c7JFinalJudgment(fonn ID: 132)

i

Appendix A

NONPRECEDENTIAL DISPOSITION
To be dted only in accordance with Fed. R. App. P. 32.1

llttfbfr States (Eourt of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
Submitted March 4,202(T
Decided March 5,2020
Before
DIANE S. SYKES, Circuit Judge
DAVID F. HAMILTON, Circuit Judge
MICHAEL Y. SCUDDER, Circuit Judge
No. 19-3075
MIKHAIL S. TSUKERMAN
Plaintiff-Appellant,
v.
WESTERN COMMUNITY UNIT
SCHOOL DISTRICT NO. 12
Defendant-Appellee.

Appeal from the United States District
Court for the Central District of Illinois.
No. 16-3214
Sue M. Myerscough,
Judge.

ORDER
A year after voluntarily dismissing a discrimination case against his former
employer, Mikhail Tsukerman, a Jewish man in his fifties and a former high school

math teacher, refiled the case. The district court stayed the proceedings until
Tsukerman paid the employer's expenses from the former litigation and, when he did
not pay, dismissed the case for want of prosecution. Because the court did not abuse its

' We have agreed to decide the case without oral argument because the briefs and
record adequately present the facts and legal arguments, and oral argument would not
significantly aid the court. Fed. R. APP. P. 34(a)(2)(C).

Appendix A

No. 19-3075

Page 2

discretion in imposing costs or dismissing the case when Tsukerman refused to pay, we
affirm the judgment.
Tsukerman's tenure teaching at Western Community Unit School District lasted
only two years. In his second year, he witnessed two anti-Semitic incidents. Someone
carved swastikas onto the walls of his classroom, and months later a student gave a
Nazi salute in his class. Western suspended the student who saluted but never caught
the other offender. At the end of the school year, Western did not renew Tsukerman's
contract, citing several poor evaluations for his classroom management and teaching.
Tsukerman sued Western for discrimination based on his age and religion. After
discovery and briefing on Western's motion for summary judgment, Tsukerman
(through counsel) voluntarily dismissed the case without prejudice under Federal Rule
of Civil Procedure 41(a)(l)(A)(ii). The stipulation for dismissal expressly reserved
Western's right under Rule 41(d) to recover its costs from the earlier litigation if
Tsukerman refiled the case. Tsukerman's counsel also told him that, if he refiled the
lawsuit (which counsel advised against), counsel's firm would not represent him and
the court could stay the proceedings until Tsukerman paid Western's prior costs.
Less than a year after the dismissal, Tsukerman (now pro se) moved to reopen
the case and amend his complaint On Western's motion, the district court stayed the
proceedings until Tsukerman paid Western's costs from the previous litigation. See Fed.
R- Crv. P. 41(d). Tsukerman asked the court to "waive" payment because he is indigent,
but the court denied his request. After three months without payment, the court
ordered Tsukerman to explain why the case should not be dismissed for want of
prosecution. He responded by reiterating the merits of his claims and underscoring his
"willingness, readiness and ability to prosecute this case ... once the unjust and
oppressive obstacle in the form of... $3524 is removed." Concluding that Tsukerman
was unwilling to pay and that nothing justified reconsidering the stay, the district court
dismissed the case with prejudice for want of prosecution. Fed. R. Civ. P. 41(b).
On appeal, Tsukerman argues that the district court was wrong to dismiss his
case for want of prosecution because he is indigent and cannot afford to cover
Western s expenses from the prior litigation. According to Tsukerman, courts should
have to consider a plaintiffs ability to pay, along with the other factors (including thengood faith and the merits of fire daim) listed in Hummel v. S.E. Rykoff, 634 F.2d 446,453
(9th Cir. 1980), when considering whether to require payment of costs under Rule 41(dk
And Tsukerman insists that under those factors, the district court abused its discretion

«
Appendix A

No. 19-3075

Page 3

in ordering costs here because he is indigent, he brings the action in good faith, and his
attorney dismissed the case without Tsukerman's permission.
Tsukerman is incorrect. We have held that "courts can bar future suits asa
sanction to.. . easLgast court costs ... even if the litigant is indigent." Gay v. Chandra,
682 F.3d 590,594 (7th Cir. 2012). Rule 41 specifically empowers courts to "stay the
proceedings" of the new suit until the plaintiff pays the past court costs whenever a
plaintiff who previously dismissed an action files another "based on or including the
same claim against the same defendants." Thus, .as we concluded in a case involving
costs under this rule, a plaintiff's "inability to pay ... does not allow him to side-step the
dictates of Rule 41." Esposito v. Piatrowski, 223 F.3d 497,502 (7th Cir. 2000).
It follows that the district court did not abuse its discretion in dismissing this
case for failure to pay costs. Tsukerman knew that the court would likely order costs as
a condition of refiling because his counsel warned him so, and Western expressly
reserved its rights under Rule 41(d) to demand costs. Furthermore, when the court gave
him a chance to explain why it should not dismiss the case based on his failure to pay,
Tsukerman told the court that he would prosecute the case only if die court lifted the
requirement to pay costs. That signaled to the court that he had no intent to comply
with the order, even though, as we have just explained, the order was valid despite his
indigency. See Fed. R. Civ. P. 41(b) (dismissal is proper when plaintiff fails to comply
with an order); Esposito, 223 F.3d at 499,501—02 (dismissed for want of prosecution when
plaintiff did not pay Rule 41(d) costs).
Accordingly, the judgement of the district court is AFFIRMED.

APPENDIX B

- Appendix B

3:16-cv-03214-SEM-TSH # 52

Page 1 of 1

E-FltED

1

Wednesday, 02 October, 2019 03:43:14W
....^ierK,'uViJl?,Wl(!t UilM, ILCD

Judgmrait inaCivilCase(02/H)

United States District Court PILED
!

Central District Of Illinois
Mikhail Tsukerman,

)
)
)
)

Plaintiff,
vs.

)

OCT -2 2019
CLERK OF THE COURT
U.S. DISTRICT COURT
CENTRAL DISTRICT OF ILLINOIS

Case Number: 16-3214

)

Western Community Unit School Dist
. No 12, Coanfc Thomas, Law Firm of
Becker, Hoerner, Thompson, and.
Ysursa, and Thomas Hunter,
Defendants.

)
)

i

i

i

i
!

)
)
)

f

1

JUDGMENT IN A CIVIL CASE
□ JURY VERDICT. This action came before the Court for a trial by jury. The issues
have been tried and the jury has rendered its verdict

i
I

El DECISION BY THE COURT, This action came before the Court, and a decision has
been rendered.

!

IT IS ORDERED AND ADJUDGED that this action is dismissed with prejudice for want
of prosecution.

?

Dated: October 1,2019

5

----

Approved:

/s/ Sue E. Mversconph
Sue E. Myerseough
U.S. District Judge

s/ Shig Yasuriaea
Siiig Yasenaga
■ Cleric, U.S. District Court

"1

I
\
!
s

ELECTRONIC FILING SYSTEM - U.S. District Court ILCD

Page 1 of2
Appendix B

Other Orders/Judgments
3:16-cv-03214-SEM-TSH
Tsukerman v. Western
Community Unit School Dist No
12
36,39,REFER,RULE 16
CONFERENCE HELD,STAYED
U.S. District Court
CENTRAL DISTRICT OF ILLINOIS
Notice of Electronic Filing

The following transaction was entered on 9/30/2019 at 11:56 AM CDT and filed on
9/30/2019
Case Name:
Tsukerman v. Western Community Unit School Dist No 12
Case Number:
3:16-c v-03214-SEM-TSH
Filer:
WARNING: CASE CLOSED on 09/30/2019
Document Number: No document attached
Docket Text:
TEXT ORDER: On May 14, 2019, the Court entered a text order staying this
case pursuant to Rule 41(d) of the Federal Rules of Civil Procedure until
Plaintiff pays Western Community School District No. 12 (District) $3,524
for expenses incurred by the District in this case. Plaintiff filed a motion
asking the Court to reconsider its decision to stay the case, and the Court
denied the motion by text order on May 30. 2019. To the Court's knowledge,
Plaintiff has not yet paid the District for any of its expenses. At the Court's
direction, Plaintiff has filed a Status Report [51] in an effort to show cause
as to why the Court should not dismiss this action for want of prosecution.
In the Status Report, Plaintiff neither indicates his willingness to pay the
District's expenses nor makes a convincing argument that the Court should
reconsider its decision to stay this case until Plaintiff pays those expenses.
Accordingly, this action is DISMISSED WITH PREJUDICE for want of
prosecution. Any pending motions are DENIED as MOOT, any pending
deadlines are TERMINATED, and any scheduled settings are VACATED.
This case is CLOSED. Entered by Judge Sue E. Myerscough on 9/30/2019.
(ME, ilcd)

ELECTRONIC FILING SYSTEM - U.S. District Court ILCD

Appendix B

(w
*

•

■

-

%

’*■
-

■

-

.
.

3:16-cv-03214-SEM-TSH Notice has been electronically mailed to:
i

Garrett P Hbemer

gph@bhtylaw.com, stacy@bhtylaw.com

Thomas J Hunter

tjh@bhtylaw.com, LCHaider@bhtylaW.com

3:16-cv-03214-SEM-TSH Notice has been delivered by other means to:
Mikhail Tsukerman
5 Delcrest Ct
# 104
St. LoufsTMO 63124

;• . «

- V

Page 2 of2

ELECTRONIC FILING SYSTEM -US. District Court ILCD

; Appendix B

Page 1 of2

Other Events
3:16-CV-03214-SEM-TSH
Tsukerman v. Western
Community Unit School Dist No
12 CASE CLOSED on
09/30/2019
36,39ICLOSED,REFER>RULE 16
CONFERENCE HELD.STAYED
U.S. District Court
CENTRAL DISTRICT OF ILLINOIS
Notice of Electronic Filing
The following transaction was entered on 10/2/2019 at 3:43 PM CDT and filed on
10/2/2019
Case Name:
Tsukerman v. Western Community Unit School Dist No 12
Case Number:
316-CV-03214-SEM-TSH
Filer:
WARNING: CASE CLOSED on 09/30/2019
Document Number: 52
Docket Text:
JUDGMENT entered. (ME, ilcd)
3:16-cv-03214-SEM-TSH Notice has been electronically mailed to:
Garrett P Hoemer
Thomas J Hunter

gph@bhtylaw.com, stacy@bhtylaw.com
tjh@bhtylaw.com, LCHaider@bhtylaw.com

3:16-cv-03214-SEM-TSH Notice has been delivered by other means to:
Mikhail Tsukerman
5 Delcrest Ct
# 104
St. Louis, MO 63124
The following document(s) are associated with this transaction:

ELECTRONIC FILING SYSTEM -US. District Court ILCD ^pendixB

Page 2 of2

Document description:Main Document
Original filename:n/a
Electronic document Stamp:
[STAMP dcecfStampJOD=l068668610 [Date= 10/2/2019] [FileNumber=3620192-0
] [487a608a4424f518a4b3dbbl09bd2b282a59d53b2e6c78327f4173cba20f7530b52
f4dde0aad5747a5198900c6f5210515dld6b84f0dec3c25678f7155 lba24d]]

7

APPENDIX C

Appendix C

3$mteb States dourt of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
April 13,2020
Before
DIANE S. SYKES, Circuit Judge
DAVID F. HAMILTON, Circuit Judge
MICHAEL YiSCUDDER, Circuit Judge

No. 19-3075
MIKHAIL TSUKERMAN,
Plaintiff-Appellant,

Appeal from the United States District
Court for the Central District of Illinois.

V.

No. 3:16-cv-3214
WESTERN COMMUNITY UNIT
SCHOOL DISTRICT NO. 12, et at.,
Defendants-Appellees.

Sue E. Myerscough,
Judge.

ORDER
Plaintiff-appellant filed a petition for rehearing and rehearing en banc on March
19.
rehearing en banc, and all members of the original panel have voted to deny panel
rehearing. The petition for rehearing and rehearing en banc is therefore DENIED.

Additional material
from this filing is
available in the
Clerk's Office.

